                         Office of Inspector Genkral
                        Corporation for National land
                                 Community Sewice




        Pre-Audit Survey of the
      ARKANSASSERVICE CO~IMISSION

        OIG Report Number 04-15




                       Prepared by:

               COlTON & COMPANY LLP
            333 North Fairfax Street, Suite 401
                Alexandria, Virginia :!2314




This report was issued to Corporation management on August 9, 2004. Un(ler
the laws and regulations governing
final management decisions on the
later than February 9, 2005, and complete its corrective
2005. Consequently, the reported findings do not
final resolution of the issues presented.
                                 Office of Inspector General                              II
                       Corporation for National and Community Service
                                     Audit Report 04- 15

         Pre-Audit Survey of Corporation for National and Community Service Grants
                                       Awarded to the
                               Arkansas Service Commission

OIG Summary

The Office of Inspector General (OIG), Corporation for Narional and Community Service


                                                                                         II
                                                                                         I




(Corporation), retained Cotton & Company LLP to perform a pre-audit survey of the Arkan as
Service Commission (Commission). The objectives of the pre-audit survey were to evaluat : (1)
the internal controls over grant management; (2) the pre-am,ard selection process; (3) the
administration of grant funds; and (4) the evaluation and o\iersight of subgrantees. The aud t
period included Program Years 200 1-2002 and 2002-2003.                                     I

The Commission was awarded Corporation AmeriCorps Formula, Program Developmedt and
Training, and Administrative grants totaling $4,728,590 for Program Years 2001-2002 and ,2002-
2003. During the survey program years, the auditors noted the following:

       Established procedures were not in place to review invoices for accuracy and
       allowability;

       The Commission did not reconcile amounts reported on subgrantee Financial Status
       Reports (FSRs) to amounts claimed on invoices and to amounts paid by the Commis;sion;

       The Commission did not have documentation to support the review and approval process
       it performed on renewal applicants, and it did not hiwe documented procedures;

       The Commission notified subgrantees of two differmt record-retention periods;

       Subgrantee site visit monitoring procedures did not include verification of member time
       records to hours reported in WBRS; and

       Site visits were not adequately documented with regard to individuals interviewed, topics
       discussed, and recommendations made.

The auditors recommended performing limited procedures to address the survey findings.

The Office of Inspector General has reviewed the report and the work papers supporting th
                                                                                         1
auditors' conclusions. Our review of the auditors' work papers disclosed no instances whe e
Cotton & Company LLP did not comply, in all material respects, with generally accepted
government auditing standards.                                                            1
                                                                                         I

The Office of Inspector General provided Commission and Corporation officials with a dr$ of
this report for their review and comment. Their responses are included in their entirety as
Appendices C and D, respectively.
                     OFFICE OF INSPECTOR GENERAL
                       FOR NATIONAL
              CORPORATION            AND COMMUNITYSERVICE
                       PRE-AUDITSURVEY   OF THE
                     ARKANSAS SERVICE COM~~ISSION

                                     Table of Contents

Summary of Results.....................................................................

Background ..............................................................................
      Corporation for National and Community Service........................
      Arkansas Service Commission...............................................

Objectives. Scope. and Methodology................................................

Results of Fieldwork....................................................................
       Internal Controls................................................................
       Selecting Subgrantees.........................................................
       Administering Grant Funds ..................................................
       Evaluating and Monitoring Grants...........................................

Appendix A: Funding Hierarchy Flowcharts

Appendix B: Detailed Engagement Objectives and Methodology

Appendix C: Arkansas Service Commission Response

Appendix D: Corporation Response
                                            auditors advisors
 333 h'0Kt'li FAWAX S T R ~   SUIR401   ~   ~ VIRGINIA22314
                                                       1      703/836/6701
                                                                  ~          FAX
                                                                             ,   703/83610941   WWW COTTO~@'A.COM



April 23,2004


Office of Inspector General
Corporation for National and Community Service


Cotton & Company LLP performed a pre-audit survey of the Arkansas Service
accordance with terms of the January 20,2004, statement of work by and
Company and the Office of Inspector General (OIG), Corporation for
Service.

The primary survey objectives were to evaluate the adeqnacy of the:

                  internal controls over grant management;

                  pre-award selection process;

         0         administration of grant funds; and

                   evaluation and oversight of subgrantees.

We conducted our procedures in accordance with Governlnent Auditing Standards issued by the
Comptroller General of the United States in 2003. We were not engaged to and did not co~duct
an audit of financial statements, the objective of which wcluld be the expression of an opinion on
the Commission's controls or on its compliance with laws and regulations. Accordingly, we do
not express such an opinion. Further, our procedures wert: not sufficient to express an opinion
on the Commission's internal controls or on its compliance with laws, regulations, contracts, and
grants. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported.

This report is intended solely for the information and use of the OIG and is not intended to be,
and should not be, used by anyone other than the OIG.

COTTON& COMPANY
              LLP

Alan Rosenthal, CPA
Partner
SUMMARY OF RESULTS

We were engaged by the Office of Inspector General (OIC;), Corporation for National and
Community Service (Corporation), to provide an assessmmt of systems and procedures in place
at the Arkansas Service Commission to administer its Arnt:riCorps grants and monitor the 5scal
activity of subgrantees. The primary objectives of this pre-audit survey were to evaluate t Le
adequacy of the:

              internal controls over grant management;

              pre-award selection process;

              administration of grant funds; and

              evaluation and oversight of subgrantees.

Based on results of procedures performed, we have made Ihe following preliminary assesswents
regarding the Commission's systems for administering its ArneriCorps grants:

              Established procedures were not in place to review subgrantee invoices for
              accuracy and allowability. While the Commission reviewed information
              submitted in the Web Based Reporting Sysl em (WBRS) for reasonableness and
              conducted site visits to validate claimed costs, it did not regularly use
              standardized procedures to ensure that claimed expenses at all subgrantees were
              supported and allowable.

              The Commission did not reconcile amounts reported on subgrantee Financial
              Status Reports (FSRs) to amounts claimed on invoices and to amounts paid by the
              Commission during Program Year 2001-2002. The Commission also failed to
              develop adequate supporting documentation.

              The Commission did not have documentation to support the review and approval
              process it performed on renewal applicants, and it did not have documented
              procedures.

               The Commission notified subgrantees of tw o different record-retention periods.

               Subgrantee site visit monitoring procedures did not include verifying member
               time records to hours reported in WBRS.

               Subgrantee site visits were not adequately clocumented with regard to individuals
               interviewed, topics discussed, and recommtmdations made.

The findings and recommendations presented in this repor: describe these matters in detail]
                                                                                             1
Based on the results of our preliminary assessment, we recommend performance of limite
procedures to address the issues identified herein for Program Years 2001-2002 and 2002- 003.
The audit risk related to the Commission's systems for administering its AmeriCorps grant and
its policies and procedures for monitoring the fiscal activity of subgrantees is at a minimu@ level
for Program Years 2001-2002 and 2002-2003. At a minimum, we recommend that the
Corporation follow up with the Commission to determine h a t appropriate corrective actioqs
have been taken to address conditions reported herein. The Corporation should also considb
these conditions in its future oversight and monitoring of the Commission.

BACKGROUND

Corporation for National and Community Service

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporat.,onfor National and Community
Service. The Corporation funds opportunities for Americans to engage in service that fosters
civic responsibility, strengthens communities, and provides educational opportunities for those
who make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, tribes, and territories to assist in creating full-time and part-time national and community
service programs. Through these grants, ArneriCorps members perform service to meet
educational, human, environmental, and public safety neecls throughout the nation, especially
addressing needs related to poverty. In return for their sewice, program participants may receive
a living allowance and post-service educational benefits.

The Corporation awards approximately 75 percent of its AmeriCorps funds to State
commissions. State commissions are responsible for developing and communicating a vision
and ethic of service throughout their States.

Additionally, State commissions, acting as grantees, distribute funds to subgrantees to enable
them to administer service programs. State commissions are responsible for monitoring
subgrantee compliance with grant requirements. The commissions also are responsible for
providing training and technical assistance for the service programs. State commissions me,
however, prohibited from directly operating national servil=.eprograms.

Arkansas Service Commission

The Arkansas Service Commission operates within the Division of Volunteerism (DOV), which
is housed under the Arkansas Department of Human Services (DHS). The DOV promotes and
supports volunteerism in the private, nonprofit, and govenunental sectors as a means of solving
problems for all Arkansans. Before the creation of ArneriCorps, the Arkansas Commission
received a $3.4 million Delta Service Corps grant in 1992; Delta Service Corps was a tri-state
service project that became a model for AmeriCorps. As tm entity within DHS, the Commission
received management and infrastructure support, including human resources, financial
accounting, administrative assistance, and procurement frclm DHS's Office of Finance and1
Administration (OFA).

The Commission had five full-time employees, including im executive director, program officer,'
PDAT coordinator, Promise Fellows/disabilities coordinatm, and executive secretary. Thq
Commission is annually subject to an OMB Circular A-13 3 audit performed for the State. 11ts
grants have not, however, been selected as major programs and therefore have not been sutjected
to detailed testing.

The Commission provided the following information for Program Years 2001-2002 and 2002-
2003.

                                            Expenditures of        Commission
               Program Year               Corporation Funding     Matching Funds
              2001-2002                           $2,111,540          $770,209
              2002-2003                           $2,617,050          $936,023

OBJECTIVES, SCOPE, AND METHODOLOGY

We were engaged by the OIG to provide an assessment of systems and procedures in placa at the
Commission for administering its AmeriCorps grants and monitoring the fiscal activity of its
subgrantees. The primary purposes of this pre-audit survey were to evaluate the adequacy lof the:

                 internal controls over grant management;

                 pre-award selection process;

                 administration of grant funds; and

                 evaluation and oversight of subgrantees, (including fiscal monitoring of
                 ArneriCorps State subgrantees), the monitoring of program accomplishments and
                 other performance statistics, and the monitoring of AmeriCorps member
                 eligibility and service-hour reporting.

Our survey included the following procedures:

                 Reviewing applicable laws, regulations, grant provisions, the Corporation's State
                 Administrative Standards Instrument, and other information to gain an
                 understanding of legal, statutory, and progriunmatic requirements;

        rn       Reviewing OMB Circular A-1 33 reports anld grant agreements between the
                 Corporation and the Commission for Program Years 2001-2002 and 2002-2)003.

' The position of program officer was vacant during fieldwork.                              I
                                                                                            I
                                                                                            I
                                                        3
               Obtaining information from Commission management to complete the flowcharts
               in Appendix A, which document the hierarchy of Corporation funding to the
               Commission for Program Years 2001-2002 and 2002-2003; and

       rn      Conducting inquiries, observations, investigations, recalculations, evaluations,
               and examinations of a limited sample of source documents to meet the objectives
               and methodology specified in Appendix B.

As part of the procedures performed, we documented and 1.ested internal controls in place 4t the
Commission. We summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on April 23,2004. Additionally, we provided a draft of
this report to the Commission and the Corporation. Comrr~issionand Corporation responses to
our findings and recommendations have been included as Appendices C and D, respectively.

RESULTS OF FIELDWORK

Internal Controls

According to 45 CFR 2541.200, the Commission must maintain financial management systems
that provide for "[alccurate, current, and complete disclosure of the financial results of
financially assisted activities." The Commission must also provide "[elffective control and
accountability . . . for all grant and subgrant cash, real and personal property, and other assets."

As part of DHS, the Commission had documented controls, guidelines, and policies for
accounting and human resource procedures that evidenced a commitment to competence a d
effective organizational structures. The OFA at DHS provided accounting support for the
Commission. The OFA handled payments and recorded transactions in the accounting system
when the Commission's executive director and DHS approved drawdown requests. The State
accounting system allowed for detailed management of costs.

The Commission reviewed monthly invoices from subgrantees against budgeted amounts and
made inquiries when it noted discrepancies. During subgrimtee site visits, it performed
procedures to reconcile a sample of invoices to supporting documentation.

Issue: Established procedures were not in place to review subgrantee invoices for accuracy
and allowability.

Correspondence between the Commission and subgrantees provided evidence that WBRS
information was used to review submitted invoices for reasonableness; however, no established
procedures were in place to ensure that claimed expenses were supported and allowable for all
subgrantees. Although the Commission reviewed supporting documents for a sample of costs
during site visits, it did not perform site visits for all subgrimtees during the program years nmder
review. Claimed costs for these subgrantees were not validated.
                                                                                              I
                                                                                         1
We tested six subgrantee files. One subgrantee (Cotton Plant School District) claimed mor than
5 percent of its total expenditures as administration expenses. The Commission did not no ice
the error and paid the full amount claimed, thus overpaying the subgrantee by $212.46. A er
reviewing several additional invoices from other subgrantees, this appeared to be an isolat+d
                                                                                            I
incident. However, without periodic detailed reviews, errors such as this can occur.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, Section C(1), Basic Guidelines, states:

       To be allowable under Federal awards, costs must :meet the following general
       criteria:

              a. Be necessary and reasonable for proper and efficient performance and
              administration of Federal awards. . . .

              j. Be adequately documented.

Additionally, 45 CFRS 2540.1 10 limits the use of Corporation h d s for administrative co
percent.

Recommendation: We recommend that the Commission document and enhance policies and
procedures for reviewing monthly invoices. A standardized checklist would provide evidence
and ensure the completeness of the review and provide evidence that the review was conducted.
These procedures should include checking WBRS member information against member support
costs claimed, recalculating administrative fees, and periodically requesting expense suppart to
validate expenses for allowability and accuracy.

Issue: The Commission did not reconcile amounts reported on subgrantee FSRs to
amounts claimed on invoices and to amounts paid by the Commission during Program
Year 2001-2002. The Commission also failed to develop adequate supporting
documentation.

The Commission started to reconcile amounts reported on subgrantee FSRs and Periodic
Expenditure Reports (PERs), amounts claimed on subgrantee invoices, and amounts paid by the
Commission to the subgrantees during the Program Year 2 002-2003 closeout process. It h ~ not,
                                                                                          d
however, performed such reconciliations before that progmrn year.

During our review of reconciliation worksheets prepared fix Program Year 2002-2003, we1 found
no documentation to explain discrepancies. According to the OFA account supervisor, follow-up
was performed, but explanations were not documented. Upon further research, OFA was dble to
provide support for one of the two discrepancies.
                                                                                                !

                                                                                                I
Without adequate reconciliation efforts, the potential exists that payments made to a subgr+ntee
could be different than amounts reported or claimed by the subgrantee. Also, amounts rep+rted
to the Corporation may not be accurate.

OMB Circular A- 102, Grants and Cooperative Agreements with State and Local Governm nts,
                                                                                            I
Attachment, Paragraph (3)(b), states that continuing Federal awards must be reconciled at east
annually, and program performance and financial reports must be evaluated. The Circular '
requires the following items to be reviewed:

       (1) A comparison of the recipient's work plan to its progress reports and project
       outputs,

       (2) The Financial Status Report (SF-269),

       (3) Request(s) for payment,

       (4) Compliance with any matching, level of effort or maintenance of effort
       requirement, and

       (5) A review of federally-owned property.

Recommendation: We recommend that the Commission develop a formal policy to ensune that
costs claimed by subgrantees on FSRs and PERs are reconciled to monthly invoices and OFA
payment records. The policy should include procedures requiring that any differences be
investigated and resolved, with explanations fully documented.

Selecting Submantees

As stated in 45 CFR 8 2550.80(b), each State commission must "[aldminister a competitive
process to select national service programs to be included in any application to the Corporcition
for funding."

The Commission advertises fund availability by:

               Placing advertisements in the only statewide newspaper;

               Sending postcards to the subgrantees on the Commission's mailing list and lo
               those that have expressed an interest in the program;

               Sending announcements to local DHS offices; and

               Posting a notice of fund availability on the Commission's web site.

It also conducts applicant workshops to provide assistance to organizations interested in
applying.
The Commission conducts pre-award financial and programmatic risk assessments of potebtial
subgrantees throughout the evaluation phases. New applications undergo a rigorous revie$ by
three committees comprised of peer, grant, and staff reviewers. Conflict-of-interest stat+nts

                                                                                         I
are required for all reviewers. Peer reviewers, who are experts in specific areas, are asked o
perform standardized reviews of applicants in their areas of expertise. Commission staff a so
perform reviews of all applications. Grant reviewers are commissioners who perform the
standardized review and conduct budget reviews for all applicants. The commissioners hake
final funding decision authority.

Commission staff review renewal applications and provide recommendations to the
commissioners, who have the final approval authority.

Issue: The Commission did not have documentation to support the review and appro
process it performed on renewal applicants, and it did not have documented

The Commission could not demonstrate that it incorporated past evaluations, such as Site Visit
Monitoring Instruments and Quarterly Progress Reports, in the grant renewal process. Past
evaluations would have helped the Commission review past accomplishments, objectives, and
performance measures. While Commission representatives stated that they reviewed these
documents, evidence was not available to support the claim that these review procedures were
performed.

Without documentation supporting the claim that the Commission considered past performmce
in its funding decision, the possibility exists that performance was not considered, and that
subgrantees with poor performance may have been renewed for another program year.

As stated in 45 CFR § 25 17.500, a State commission must evaluate the quality of program
leadership, past performance of the program, and the extent to which the program builds on
existing programs when reviewing an application for a subgrant.

Recommendation: We recommend that the Commission develop a standardized renewal form,
such as a checklist, that documents the full evaluation process performed, including a review of
past monitoring results, and the outcome of those processes.
Administerine Grant Funds

According to 45 CFR 8 2550.80(d), State commissions "will be responsible for administering the
grants and overseeing and monitoring the performance and progress of funded programs."

The Commission reviews PERs to ensure that subgrantees claim matching contributions in
accordance with the budget. During site visits, the Commission reviews program matching files
and conducts sample testing to verify allowability and proper valuation of the matching
                                                                                        TtS
previously reported. Before grant closeout, the Commission reviews a subgrantee's final P R
and confirms that the subgrantee is in compliance with matching requirements.

The Commission has procedures in place to ensure that reports are received in a timely manner,
including sending reminder e-mails. It has also established subgrantee reporting deadlines
earlier in the month to allow the Commission to submit its reports in a timely manner.
Subgrantees report both financial and programmatic results in WBRS. The Commission reviews
subgrantee progress reports and sends review results back to the subgrantee.

Issue: The Commission notified subgrantees of two different record-retention periods.

The Commission's executive director indicated that the Commission required subgrantees to
meet the Corporation's retention period of three years from submission of the final FSR. We
noted during our review, however, that subgrantee grant agreements required subgrantees to
retain grant documentation for a period of five years from grant expiration.

The Commission was unaware that the record-retention period outlined in the subgrantee grant
agreement differed from that communicated to subgrantees at orientation and during program
meetings. Although the five years from the grant expiration is likely longer than the three-year
retention period, subgrantees may fail to meet the Corporation's required retention period. In
instances where grants are not timely closed-out the three-year retention period may exceed the
state's five-year requirement.

Retention and access requirements for records are outlined in 45 CFR § 2541.420, which states
that records must be retained for three years from the day when the grantee submits its final
expenditure report.

Recommendation: To meet both Corporation and State record-retention requirements, we
recommend that the Commission require subgrantees to retain documents for the longer period.

Evaluating and monitor in^ Grants

As stated in 45 CFR 4 2550.80(e), a Commission, "in concert with the Corporation, shall be
responsible for implementing comprehensive, non-duplicative evaluation and monitoring
systems."
Commission personnel review the Quarterly Progress Reports and prepare feedback letters'
summarizing review results with regard to each section of programmatic information.

The Commission performs formal site visits of new subgrantees in the first program year a!pd


                                                                                          r
also performs site visits of large-dollar subgrantees, subgrantees with small staffs, and
subgrantees with recruitment and retention issues. The Commission usually performs site isits
every other year for subgrantees that report results and financial information promptly and that
have been found to be in compliance with Corporation and Commission requirements duribg the
first-year visit.

During site visits, the Commission uses a standard Site Visit Monitoring Instrument, and
Commission staff review results and verify reported program accomplishments. As part 04 the


                                                                                          1
site visit's Financial Compliance review, the financial analyst evaluates the subgrantee's
accounting systems, records, and support for grant expenditures. After the monitoring visi ,the
Commission provides a site visit feedback report outlining program strengths and weaknes es. If
any noncompliance findings are identified, the Commission follows up to resolve these findings.

Also, DHS's Audit Section reviews OMB Circular A- 133 reports for audits performed on
subgrantees. DHS reports any applicable issued noted to the Commission.

Issue: Subgrantee site visit monitoring procedures did not include a verification and
reconciliation of member time records to hours reported in WBRS.

When completing the Subgrantee Site Visit Monitoring Instrument, Commission reviewers
verify the accuracy of member information by reviewing member files and conducting member
interviews. Subgrantee monitoring procedures do not, however, include a requirement to
reconcile member information in the site files to WBRS.

For example, to verify member service hours, the site monitoring instrument used by the
Commission requires reviewers to examine time logs to ensure that they correctly record sczrvice
hours, and that time logs are signed by the supervisor and the member. The instrument does not
include a step to reconcile information from the time logs to WBRS. Without this step,
members who fail to complete the minimum number of service hours may improperly receive
education awards.

Recommendation: We recommend that the Commission modify its existing Site Visit
Monitoring Instrument to include procedures for ensuring the accuracy of member information in
WBRS.

Issue: Subgrantee site visits were not adequately documented with regard to individuals
interviewed, topics discussed, and recommendations made.

The Commission's policies and procedures require interviews with members, supervisors, and
program partners to determine if member activities are in accordance with the grant provisims.
The Site Visit Monitoring Instrument used by the Commission did not fully and clearly
document monitoring efforts performed in this regard. Site visit interviews and topics of
discussion were not documented and it was unclear who had provided comments and what1their
official positions were in the program.

Without this additional documentation, future users of the monitoring instrument will be unable
to determine if interviews were conducted, and what information was gathered. For examlple, we
could not ensure that discussions were held on key topics, such as prohibited activities and
training support.

According to 45 CFR $2541.400(a):

       Grantees are responsible for managing the day-to-day operations of grant and
       subgrant supported activities. Grantees must monitor grant and subgrant
       supported activities to assure compliance with applicable Federal requirements
       and that performance goals are being achieved. Grant monitoring must cover each
       program, function or activity.

Additionally, Section 4.3 of the Reference Manual for Commission Executive Directors states
that "the commission must evaluate whether the subgrantees comply with legal, reporting,
financial management and grant requirements and ensure follow through on issues."

Recommendation: We recommend that the Commission document additional details of
interviews in the Site Visit Monitoring Instrument, including interview content and the names of
members, supervisors, and program partners who have been interviewed.
                                                                                                 APPENDIX1A
                                                                                                   Page 1 ot 2
                                Office of Inspector General
                      Corporation for ~ a t i o n aand
                                                   l Community Service
                       State Commission Pre-Audit Survey: Arkansas
                               Funding Hierarchy Flowchart


                                                                                                                 I

                             Corporation for National and Community Service
                              Funding to the Arkansas Service Commission
                                       Program Year 2001-2002
                                        I


                                                    v               v                 v                  v
                                    Ed Award       PDAT        Administrative      Disability
 Formula      Competitive             Funds        Funds          Funds             Funds             Fellows
  Funds         Funds                                                                                  Funds

 $783.922      $830.788              $21.200      $1 11.000      $180,249          $39,781            $144.600

  Match         Match                Match                        Match             Match              Match
 $285.808      $302.326                                          $182,075



                                                               I
                                                               *
               Total Corporation Funds Retained by the Commission: $33 1,030

                               Total Commission Matching Funds: $770,209

                 Total Corporation Funds Awarded to Subgrantees: $1,780,5 10




AmeriCorps    AmeriCorps            Ed Award       PDAT         Administrative     Disability          Promise
 Formula      Competitive                                                                               Fellows
 $659.843      $672.573              $1 8.656     $102.047         $1 80.249        $26.320            $130.469

  Match          Match               Match         Match            Match            Match              Match
 $269.480       $372.195                           NIA            $ 186.480          NIA                NIA

 Total # of     Total # of          Total # of    Total # of      Total # of       Total # of          Total # of
  SUBS                                             SUBS            SUBS             SUBS                SUBS
     7                                              NIA             NIA                0                   I

 Total # of     Total # of          Total # of    Total # of    Total # of Sites    Total # of         Total # of
   Sites          Sites               Sites         Sites             N/A             Sites              Sites
    26                                              NIA                                 0                  II
                                                                                                          APPENDIX/A
                                                                                                              Page 2 of 2
                                         Office of Inspector General
                               Corporation for ~ationaland Community Service
                                State Commission Pre-Audit Survey: Arkansas
                                        Funding Hierarchy Flowchart


                                    Corporation for National and Community Service
                                     Funding to the Arkansas Service Commission
                                                Program Year 2002-2003




        AmeriCorps    AmeriCorps
                      Competitive
                                                                           1
                                                                      Administrative
                                                                         Funds
                                                                                             Disability
                                                                                                          -      Pmmise
                                                                                                              Fellows Funds

         $928.767     $1,222,785           $12.000       $96.000'       $178.898                                $144.600

                        Match               Match                        Match                                      Match
         $338.280      $417.183                                         $180.560                                     $0

                                                                                       J I




    I
           v             v                    1                            v                    v                    v
    I                  Total Corporation Funds Retained by the Commission: $308,898                                             I
    I                                 Total Commission Matching Funds: $936,023                                                 I
                         Total Corporation Funds Awarded to Subgrantees: $2,308,152
    -                      I
                                                                                                                            I
        AmeriCorps    AmeriCorps           Ed Award       PDAT          Administrative          Disability             Pmmise
         Formula      Competitive                                                                                      Felloqs
         $822.686     $1,194,574           $11.628       $78.163          $165.423               $16.089              $1 10.210

          Match         Match               Match         Match            Match                  Match                Match
         $315.299      $419,079                           NiA             $188.018                NIA




                                                                                                                I TOm~~Of
         Total # of    Total # of          Total # of    Total # of    Total # of SUBS          Total # of
                                                          SUBS                                   SUBS                  SUBS
                                                           N/A                                      0



                                                                                                                I
         Total # of    Total # of          Total # of    Total # of                             Total # of
           Sites         Sites               Sites         Sites                                  Sites                 Sites
                                                           NiA                                       0




* The Commission received an additional $7,551 of carryover hnding from 2001-2002, which
is not included in the amount above.
                     B
              APPENDIX

DETAILED
       ENGAGEMENT
               OBJECTIVES
                       AND METHODOLOGY
                                                                                     APPE~IX   B
                                                                                       Pa* 1 of 4
                                 Office of Inspector General
                      Corporation for National and Community Sewice
                       State Commission Pre-Audit Suwey: Arkansas
                      Detailed Engagement Objectives and Methodology


INTERNAL CONTROL

Our objective was to assess the adequacy of financial systems and documentation maintainied by
the Commission to provide reasonable assurance that transactions were properly recorded a d
accounted for to: (1) permit preparation of reliable financial statements and Federal reports/;(2)
maintain accountability over assets; and, (3) demonstrate compliance with laws, regulations, and
other compliance requirements.

To achieve these objectives, we reviewed promulgated guidance as well as identified internal
control objectives and characteristics related to the Commission's ability to ensure compliance
with Federal laws, regulations, and program compliance. Through inquiry, observation, a d
inspection of documents, we documented and tested the Commission's controls related to the
control environment. We also reviewed operating procedures in place regarding allowable costs,
eligibility, matching, period of availability of Corporation funds, procurement, suspension,
debarment, program income, subgrantee monitoring, and Commission reporting to the
Corporation.

SELECTING SUBGRANTEES

Our objective was to determine if the Commission had an open, competitive process to select
national service subgrantees. We examined policies and procedures related to assessing the
adequacy of potential subgrantee financial systems, subgrantee controls to administer a Federal
grant program, and processes for preventing conflicts of interest in the selection process at the
Commission. We also determined if the Commission's systems and controls related to selscting
subgrantees were functioning as designed.

To achieve these objectives, we interviewed key Commission management and documented
procedures performed by the Commission during the pre-award financial and programmatic risk
assessment of potential subgrantees. We also interviewed key Commission management afid
documented procedures performed by the Commission to select subgrantees.

The Commission did not have formalized procedures related to approving renewal applicants;
thus, we reviewed documentation of this process to determine what procedures appear to have
been performed. This included reviewing risk assessment tools, reviewer packages,
correspondence, memoranda, e-mails, and scoring tools.

We also conducted tests to determine if the Commission's systems and controls for selecti g
subgrantees were functioning as designed. Our testing methodology included selecting a     1
judgmental sample of subgrantee selection files and reviewing file documentation for eviddnce
of selection criteria, as defined by Commission interviews, available documentation, and known
best practices.

ADMINISTERING GRANT FUNDS

Our objectives were to:

              Assess the adequacy of systems and controls used by the Commission to maintain
              appropriate financial management systems to disburse funds and track
              Commission and program expenses in accordance with legal and grant
              requirements.

              Determine if the Commission's organizational structure, staffing level, and
              staffing mix were conducive to effective grant administration.

               Determine if the Commission provided adequate guidance to subgrantees ralated
               to maintenance of financial systems, records, supporting documentation, and
               reporting of subgrantee activity.

               Assess the adequacy of financial systems and Commission documentation to
               support oversight of subgrantees and required reporting to the Corporation, ~ u c h
               as FSRs, enrollment and exit forms, change of status forms, and audit reports.

               Determine if the Commission had procedures in place to verify the accuracy and
               timeliness of reports submitted by subgrantees.

To achieve the above objectives, we interviewed key Commission management and DHS QFA
management. We also documented their policies and procedures to administer grant funds.
Furthermore, we gained an understanding of manual and automated systems used by
Commission and OFA personnel to administer grant funds through inquiry, observation, sad
system walkthroughs.

We obtained and reviewed the State's official policies and procedures related to administe~ng
grant funds. Commission procedures have not been formalized; we reviewed the documenl;ation
that was provided to determine what procedures appeared to be in place.

We then reviewed support for the Commission's subgrantee drawdown process. We also
observed the Commission's procedures for reviewing the allowability of subgrantee
expenditures, reviewed its assessment of match and administrative expenses claimed by a
subgrantee on a Corporation grant, and reviewed the Commission's procedures for verification
of program members and staff hours charged to grants.

We reviewed OFA's accounting posting modules for recording subgrantee pass-through
transactions and the Commission's direct Corporation grant expenditures. We also observed the
flow of financial information through OFA's accounting system. We further compared thqse
                                                                                      I
procedures to OFA's policies and procedures.

We reviewed FSRs and progress reports submitted by subgrantees and FSRs submitted by bhe
Commission to the Corporation to assess accuracy.

We also conducted tests to determine if the Commission's systems and controls related to
administering grant funds were functioning as designed. Our testing methodology included
selecting a judgmental sample of subgrantee files. We reviewed documentation and other
corroborating documentation to verifjr that stated policies and procedures were in operation and
that controls in place were sufficient.

EVALUATING AND MONITORING GRANTS

Our objectives were to:

       rn      Identify and assess the adequacy of the systems and controls used by the
               Commission to implement a comprehensive subgrantee evaluation and monitoring
               process.

               Determine if the Commission had an established subgrantee site visit program in
               place and assess the effectiveness of its design in achieving monitoring objectives.

               Determine the adequacy of Commission procedures to assess subgrantee
               compliance with Corporation regulations (e.g., eligibility of members, service
               hour reporting, prohibited activities, payment of living allowances to members,
               and allowability of costs claimed under grants by subgrantees).

               Assess the adequacy of Commission procedures for obtaining, reviewing, and
               following up on findings included in subgrantee single audit reports, where
               applicable.

               Determine if program goals were established, and if program results and
               performance statistics were accurately reported and compared to these goals.

        @      Assess the adequacy of procedures in place to evaluate whether subgrantee
               programs were achieving their intended purposes.

To achieve these objectives, we interviewed key Commission management and reviewed the
program monitoring policy. This policy is broad and does not provide details regarding
monitoring procedures; thus, we reviewed sample documents to determine what procedure
appeared to be in place. This included Site Monitoring Visit Instruments, Progress Report
analysis memoranda, OMB Circular A-1 33 Desk Review Guides, e-mails, and
We then tested the Commission's systems and controls related to evaluating and monitoriqg
subgrantees to determine if they were functioning as designed. Our testing methodology
included selecting a judgmental sample of subgrantee files. We reviewed other
documentation to verify that policies and procedures were in operation. We
if the Commission had received and reviewed OMB Circular A-133 audit reports from      I

subgrantees.
                Arkansas Service Commission
                DHSIDivision of Volunteerism
                Donaghey Building, Suite S-230
                P.O. Box 1437
                Little Rock, AR 72203-1437

                Telephone (501) 682-7540          WATS 1-800-482-5850,ext. 27540
                TDD (501) 682-1605                Fax (501) 682-1623




July 26,2004



J. Russell George, Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Dear Mr. George:

After studying the draft report on the Pre-Audit Survey conducted by Cotton and
Company at the Arkansas Service Commission April 13-23,2004,I am sending the
Commission's response with this cover letter. The response has two parts.
        Part I consists of corrections of errors and clarifications of facts.
    o Part I11 contains the Commission's response to specific issues and
        recommendations cited in the report.

Please let me know if any further clarification or documentation is required.

Sincerely,



Albert Schneider, Executive ~ i r e c t o ;




                             "Getting Things Doneg9
                       Arkansas Service Commission
                  Response to Draft Pre-Audit Survey Report
                    Part I: Corrections and Clarifications



1. The draft report first arrived as an e-mail attachment. The cover letter was
   directed to me as Executive Director of the Arkansas Service Commission, but tqe
   street address, suite number, city, state and zip code all were those of the Arizonq
   Commission. The correct postal address for the Arkansas Service Commission i$
                                                                                       I
   P. 0 . Box 1437, Slot S230, Little Rock, AR 72203.                                  I

                                                                                        I

2. On page 3, in paragraph 3, "program director" should be changed to "program
   officer." At state commissions, the staff person who oversees program operation
   is a program officer, while the person who directs operations for an individual i    6
   subgrantee is a program or project director.

3. On page 8, the issue regarding record-retention periods contains a statement that
   is confusing and contradicts the recommendation. The statement in full is:
   "Although five years from grant expiration is likely longer than the three-year
   retention period, subgrantees may fail to meet the Corporation's required
   retention period." The recommendation is "To meet both Corporation and State
   record-retention requirements, we recommend that the Commission require
   subgrantees to retain documents for the longer period, which is five years after
   grant expiration." This issue is more fully addressed in the response in Part 111.
                      Arkansas Service Commission
                Response to Draft Pre-Audit Survey Report
        Part 11: Response to Specific Issues and Recommendations
Issue/Recommendation #1: Procedures to Review Invoices for Accuracy and
                               Allow ability

A. The Commission has routinely checked invoices against the number of members
   in the program based on WBRS records and contacted programs when it appearep
   that living allowance costs exceeded the number of members enrolled. In two
   cases (Good Neighbor Center and First Baptist Church) this procedure led to a
   lengthy investigation of the programs' records, questioning of costs and
   reimbursement to the Commission~Corporation.
B. In order to document this and other steps in invoice review more completely, the
   Commission developed and began using a standardized checklist for reviewing
   program invoices immediately after the Pre-Audit Survey. Copies of a completed
   checklist for one of the programs and the form that will be used in 2004-2005 are
   attached to this response (Attachment 1 and Attachment 2).
C. The Commission has added review of program invoices with this checklist to the
   Program Officer's job description. A copy of that job description is attached to
   this response (Attachment 3). Please note the italicized portions for the changes
   made to address the issue/recommendation.
D. The Commission has revised Commission Compliance Requirements to include a
   requirement that programs submit expense support to validate expenses for
   allowability and accuracy. A copy of the revised Compliance Requirements is
   attached to this response (Attachment 4). Please note the italicized portions for
   the changes made to address the issue/recommendation. The Compliance
   Requirements will continue to be incorporated ir, the grant agreement with each
   program. During the month of August 2004 and in subsequent years the
   executive director of the Commission will review this new requirement with all
   program directors to ensure proper understanding and compliance.
                       Arkansas Service Commission
                 Response to Draft Pre-Audit Survey Report
         Part 11: Response to Specific Issues and Recommendations
 Issue/Recommendation #2: Reconciliation of Subgranter FSRs and PERs to
           Monthly Invoices and DHS - OFA Payment Records.

A. With the invoice review process described in Issue #1, the Commission has
   already taken steps that will result in early detection and correction of
   discrepancies between subgrantee and Commission records.
B. The Commission has added to its policies a requirement that the Program Office
   reconcile on a quarterly basis program FSRs, PERs and invoices to DHS - OFA
   records, as well as investigate and resolve differences and document explanatior
   In addition, the program officer will retain records of the quarterly reconciliatior
   in Commission FSR files. A copy of the policy is attached to this report
   (Attachment 5). Please note the italicized portions for the changes made to
   address the issue/recommendation.
C. Beginning with the period ending March 3 1, 2004, the Commission began
   implementing the policy. In the absence of a program officer the Executive
   Director met with the DHS - OFA representative to reconcile the reports. A copy
   of those reconciliation documents is attached to this response (Attachment 6).
D. The Commission has revised the Program Officer's job description to include the
   quarterly reconciliation of program FSRs, PERs and invoices to DHS - OFA
   records (Attachment 3). Please note the italicized portions for the changes made
   to address the issue/recommendation.
                       Arkansas Service Commission
                 Response to Draft Pre-Audit Survey Report
         Part 11: Response to Specific Issues and Recommendations
          Issue/Recommendation #3: Standardized Renewal Form

A. Members of the Commission staff have reviewed program performance, includilpg


                                                                                  i:
   timely and accurate submission of reports, recruitment and retention of member
   progress towards objectives/performance measures and participation in training n
   reviewing and approving renewal applications for ArneriCorps funds. Most o f t e
   information they considered was included in detailed analyses and memoranda
   back to programs on their quarterly progress and financial reports (Income
   Report, Periodic Expense Report and FSR) and in the memoranda to program
   directors following site visits. In at least one instance, Boys and Girls Clubs of
   Faulkner County, the review resulted in refusal to fund the subgrantee for a thirq
   year.
B. In order to document its review more completely the Commission has develope
   the Arkansas ArneriCorps Program Assessment. Commission staff will comple      i
   this form in January of each year to determine funding for renewal applicants. 1
   They will use the same form in January and again in July to determine which
   programs should receive a site visit in the spring and fall. A copy of the Arkans
   ArneriCorps Program Assessment is attached to this response (Attachment 7).
                        Arkansas Service Commission
                  Response to Draft Pre-Audit Survey Report
          Part 11: Response to Specific Issues and Recommendations
Issue/Reconrmendation #4: Record Retention Period for AmeriCorps Program
                                 Documents


   The hinge statement in this section of the draft report defies logic: "Although fiv4
   years from grant expiration is likely longer than the three-year retention period,
   subgrantees may fail to meet the Corporation's required retention period'." It is
   difficult to imagine a scenario in which a subgrantee would fail to meet the
   federal record retention requirement if instructed to keep documents for five years
   from the expiration of the grant.
   Further, the statement begs the question because a careful review of the
   documents we submitted shows that we have repeatedly communicated to our
   subgrantees the CNCS (three-year) requirement, not the (five-year) requirement
   contained in the DHS (state) grant agreement.
   The Issue concludes with this Recommendation: "To meet both Corporation and
   State record-retention requirements, we recommend that the Commission require
   subgrantees to retain documents for the longer period, which is five years
   after grant expiration." Unfortunately the Recommendation contradicts the
   hinge statement cited above in Item A.
   Given the problem with the Recommendation, the Commission plans instead to
   instruct subgrantees that they are subject to two record retention policies, one
   federal and one state, and that they are required to hold the records for whichever
   turns out to be longer. The Arkansas Service Commission has revised its
   Compliance Requirements accordingly. A copy of the revised Compliance
   Requirements is attached to this response (Attachment 4). Please note the
   italicized portions for the changes made to address the issue/recommentlation.
   The Compliance Requirements will continue to be incorporated in the grant
   agreement with each program. During the month of August 2004 and in
   subsequent years the executive director of the Commission will review this new
   requirement with all program directors to ensure proper understanding and
   compliance.
                       Arkansas Service Commission
                 Response to Draft Pre-Audit Survey Report
         Part 11: Response to Specific Issues and Recommendations
Issue/Recommendation #5: Verification and Reconciliation of Member Time
                    Records to Hours Reported in WBRS

A. The auditors recommend that the Commission modify its existing Site Visit
   Monitoring Instrument to include the procedures for ensuring the accuracy of
   member information in WBRS. The Commission proposes to address the issue i
   a different manner, i.e., by including this part of its monitoring process in the
   quarterly review of progress and financial reports.
B. Members of the Comn~issionstaff review team will request the program director
   to fax the signed time sheet of one randomly chosen member for the latest montk
   entered in WBRS. The reviewer will check the WBRS time log for timeliness
   and accuracy, note any discrepancies, and notify the program director that the
   WBRS time log was submitted in a timely manner and is accurate or needs to be
   revised because of discrepancies. The program director will be required to make
   the corrections and report back to the Commission.
C. The Commission is choosing this method of monitoring the accuracy of WBRS
   time logs for the following reasons. First, it is difficult for the site visit team to
   collect all the data required in the current site visit document in one day. Second,
   by connecting the monitoring process to the quarterly progress report review, the
   Commission will actually be monitoring those records more frequently than if the
   review was limited to site visits which are conducted only once or twice a year.
D. Prior to the Pre-Audit Survey, the document the Arkansas Service Commission
   called its Program Monitoring Policy did not describe forms of monitoring other
   than site visits. It has been expanded to include other forms of monitoring that
   were covered elsewhere in Commission Policies and Procedures and new
   elements of monitoring that are being adopted in response to the draft report. A
   copy of the revised progress and financial report review procedure is attached to
   this report (Attachment 8). Please note the italicized portions for the changes
   made to address the issue/recommendation.
                       Arkansas Service Commission
                 Response to Draft Pre-Audit Survey Report
         Part 11: Response to Specific Issues and Recommendations
     Issue/Recommendation #6: Documentation of Site Visit Interviews

A. The Arkansas Service Commission has always included interviews with
   AmeriCorps members and other stakeholders as part of its site visit process.
   Other interviewees have included host site supervisors, mentor teachers
   overseeing the activities of AmeriCorps tutors in schools, principals of schools
   and concerned community members. The visitor to the site made notes on the
   interviews and incorporated significant information in the memorandum to the
   program director following the site visit. In some instances these interviews have
   alerted the Commission to violations of the nondisplacement provision. This
   resulted in a strong warning to the program director to ensure that host sites not
   conscript ArneriCorps members to help with activities that others were paid to do
   such as substitute teaching, playground duty and secretarial or receptionist work
B. In order to document the form, substance and results of interviews with
   AmeriCorps members during site visits, the Commission has developed forms far
   an AmeriCorps member interview and AmeriCorps stakeholder interview. The
   forms include places for the name of the interviewee, the interviewee's relation to
   the program, the name of the interviewer and date. The Commission began using
   these forms during the June 2004 site visits and will use them in all future site
   visits. Copies of the forms are attached to this response (Attachment 9 and
   Attachment 10).




                                         CommonIPre-Aud~tSurveyIResponse to Draft Report 07-26-04
                                Corporation for        P

                                NATIONAL &I
                                COMMUNITY
                                SERVICE-




To:           J. Russell George, Inspector General

From:                                             of Grants Management

Cc :          Michelle Guillermin, Chief Financial Officer
              Rosie Mauk, Director of AmeriCorps

Date:         July 26,2004

Subject:      Response to OIG Draft Audit Report 04-15, Pre-Audit Survey of the
              Arkansas Service Commission


We have reviewed the draft Pre-Audit Survey of the Arkansas Service Commission. D
to the limited timeframe for response, we have not reviewed all the supporting
documentation and corrective action plans submitted by the Commission. However, wl
note that the Commission has indicated they have implemented corrective action on all
six recommendations and updated their written policies and procedures to reflect the
recommendations made in the report. Within the next four months, the Corporation will
complete its management decision and follow up with the Commission to confirm that
implementation is complete.




                        1201 New York Avenue, NW      *
                                                 Washington, DC 20525
                                              *
                              202-606-5000 www.nationalservice.org
                       Senior Corps   * AmeriCorps * Learn and Serve America                                      L
                                                                                        The President's Call to Service
